HHS/OIG-Audit--"Corrective Action Review of the Health Care Financing Administration's Medicare Payment Safeguards Program, (A-04-92-02037)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Corrective Action Review of the Health Care Financing Administration's Medicare Payment Safeguards Program," (A-04-92-02037)
August 7, 1992
Complete
Text of Report is available in PDF format (2.45 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our corrective action review of the Medicare payment safeguards program which
was requested by the Department of Health and Human Services' Council on Management Oversight. We found that the Health
Care Financing Administration maintained relatively stable payment safeguard funding levels as stated in their corrective
action plan. However, we found that these funding levels were not adequate for contractors to maintain consistent staffing
and workload activity in the safeguard areas of Medicare secondary payer and medical and utilization review.